App. 1
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-------------------------------------------------------------------------------------------------------------------------

WAYNE DUKE KALBAUGH,
Plaintiff - Appellant,
v.
JACOB JONES;
BRYAN WRIGHT,

No. 18-6205
(D.C. No. 5:16-CV01314-R)
(W.D. Okla.)

Defendants - Appellees.
-------------------------------------------------------------------------------------------------------------------------

ORDER AND JUDGMENT*
(Filed Mar. 30, 2020)
-------------------------------------------------------------------------------------------------------------------------

Before HARTZ, MORITZ, and EID, Circuit
Judges.
-------------------------------------------------------------------------------------------------------------------------

Wayne Kalbaugh appeals the entry of summary
judgment in favor of the Defendants, Oklahoma City
Police Department (OCPD) Officers Jacob Jones and
* After examining the briefs and appellate record, this panel
has determined unanimously that oral argument would not materially assist in the determination of this appeal. See Fed. R.
App. P. 34(a)(2); 1 0th Cir. R. 34.1(G). The case is therefore ordered submitted without oral argument. This order and judgment
is not binding precedent, except under the doctrines of law of the
case, res judicata, and collateral estoppel. It may be cited, however, for its persuasive value consistent with Fed. R. App. P. 32.1
and 10th Cir. R. 32.1.

App. 2
Bryan Wright, on his claim that they violated his constitutional rights when they used excessive force in arresting him following a car chase. The district court
held that Defendants were entitled to qualified immunity. We exercise jurisdiction under 28 U.S.C. § 1291
and affirm in part and reverse and remand in part.
I.

BACKGROUND

On November 25, 2014, an OCPD officer initiated
a traffic stop of the automobile in which Plaintiff was
a passenger. After the driver bailed out of the moving
car, Plaintiff took the driver’s seat and led officers on a
high-speed chase in heavy traffic. Shortly thereafter, a
police helicopter took over the pursuit for safety reasons. A local news station helicopter also followed the
chase and recorded it on video. The video shows Plaintiff speeding, weaving through traffic, driving on the
median and the shoulder, and running red lights.
Plaintiff turned up a private road that dead-ended
at a chain-link fence. Although he tried to back up, approaching police cars prevented his escape, so he drove
forward and attempted to crash through the fence. The
car knocked over a portion of the fence and stalled.
Plaintiff got out of the car and dropped three handguns. He put his hands in the air and backed over the
downed fence on foot. He then turned and ran toward
the adjacent National Guard parking lot, still with his
hands in the air. He heard the officers yelling at him,
but said he thought they were threatening to shoot
him.

App. 3
When Plaintiff reached the parking lot, he approached Army Reservist Kevin Deon, who had seen
Plaintiff ram the fence and exit the car with a gun.
Deon put him on the ground and straddled Plaintiff for
the few seconds it took for Officers Jones and Wright
to reach them. Before they were able to handcuff Plaintiff, the officers discovered a knife in his pocket.
Ultimately, Officers Jones and Wright subdued
Plaintiff, handcuffed his hands behind his back, and
arrested him. Plaintiff alleged that he did not resist
but the officers nevertheless struck him repeatedly. He
also asserted that he did not reach for his knife. Thus,
he claimed that the blows administered by Defendants
were unnecessary and excessive. Defendants, in contrast, asserted that the force they used to subdue
Plaintiff was reasonable in light of the circumstances
that confronted them.
Plaintiff sued Officers Jones and Wright in their
individual and official capacities, as well as the Oklahoma City Police Department. The district court dismissed the Police Department and the official-capacity
claims against the individual officers. Plaintiff filed an
amended complaint, naming as defendants only Officers Jones and Wright, but again checking the box indicating they were sued in both their individual and
official capacities.
Thereafter, both sides filed motions for summary
judgment. The district court, adopting the report and
recommendation of a magistrate judge, denied Plaintiff ’s motion and granted Defendants’ motion.

App. 4
II.

LEGAL STANDARDS

“We review the grant of summary judgment de
novo. We view the facts in the light most favorable to
the nonmovant and draw all reasonable inferences in
the nonmovant’s favor. Summary judgment is appropriate only if there is no genuine dispute as to any material fact.” Jones v. Norton, 809 F.3d 564, 573 (10th Cir.
2015) (citations and internal quotation marks omitted). If a fact “could have an effect on the outcome of
the lawsuit,” it is material. Id. “A dispute over a material fact is genuine if a rational jury could find in favor
of the nonmoving party on the evidence presented.” Id.
(internal quotation marks omitted). Where, as here,
there is video of the events at issue, the court should
not adopt a version of the facts that “is blatantly contradicted by the record, so that no reasonable jury
could believe it” when ruling on a motion for summary
judgment. Scott v. Harris, 550 U.S. 372, 380 (2007); accord Carabajal v. City of Cheyenne, 847 F.3d 1203, 1207
(10th Cir. 2017) (“[W]e cannot ignore clear . . . video evidence in the record depicting the events as they occurred.”).
We liberally construe Johnson’s [sic] pro se complaint and other filings in our review, but we do not act
as his advocate. See Garrett v. Selby Connor Maddux
& Janer, 425 F.3d 836, 840 (10th Cir. 2005). Notwithstanding his pro se status, Johnson [sic] must comply
with the same rules of procedure as other litigants. See
id.

App. 5
III. DISCUSSION
A. Excessive Force
An injured person may seek damages under 42
U.S.C. § 1983 against “an individual who has violated
his or her federal rights while acting under color of
state law. Individual defendants named in a § 1983 action may raise a defense of qualified immunity, which
shields public officials from damages actions unless
their conduct was unreasonable in light of clearly established law.” Estate of Booker v. Gomez, 745 F.3d 405,
411 (10th Cir. 2014) (citations, ellipsis, and internal
quotation marks omitted). When a defendant raises a
qualified-immunity defense, “the plaintiff carries the
two-part burden to show: (1) that the defendant’s actions violated a federal constitutional or statutory
right, and, if so, (2) that the right was clearly established at the time of the defendant’s unlawful conduct.”
Id. (internal quotation marks omitted).1
Plaintiff contends that Defendants violated his
federal constitutional rights by using excessive force.
“The reasonableness of a particular use of force must
be judged from the perspective of a reasonable officer
at the scene, and not with perfect hindsight.” Lindsey
v. Hyler, 918 F.3d 1109, 1113 (10th Cir. 2019) (internal
quotation marks omitted). We evaluate “whether the
1

Plaintiff asserts that his rights under the Fourth, Eighth,
and Fourteenth Amendments were violated. But it is “the Fourth
Amendment . . . [that] governs excessive force claims arising from
treatment of an arrestee detained without a warrant and prior to
any probable cause hearing.” Estate of Booker, 745 F.3d at 419
(emphasis, brackets, and internal quotation marks omitted).

App. 6
officers’ actions are objectively reasonable in light of
the facts and circumstances confronting them, without
regard to their underlying intent or motivation.” Graham v. Connor, 490 U.S. 386, 397 (1989) (internal quotation marks omitted). Factors relevant to this inquiry
include “the severity of the crime at issue, whether the
suspect poses an immediate threat to the safety of the
officers or others, and whether he is actively resisting
arrest or attempting to evade arrest by flight.” Id. at
396.
Plaintiff asserts the force used was unreasonable
because he did not resist arrest, as demonstrated by
the fact that when he exited his car he dropped his
guns and “placed his hands high up in the air to show
everyone he was of no threat, and that he wanted to
peacefully surrender.” Aplt. Opening Br. at 4. He claims
he ran from the police because he thought he heard
them yelling to shoot him. He characterizes his contact
with Deon as trying to lie down with his hands out to
show he was not resisting. He contends that even
though he was not resisting or struggling when Officers Jones and Wright reached him, the officers nevertheless punched him repeatedly. And although he
admits he was carrying a knife in his trousers pocket,
he did not remember that he was carrying it and he
would have needed both hands to unsheathe it.
About 20 seconds elapsed from the time Defendants reached Plaintiff to the time they clearly had him
sitting up and under control. Plaintiff argues that during this period, if he moved his hands at all, it was only
in response to the officers’ order to “cuff up.” R. Vol. 2,

App. 7
at 24-26. Otherwise, Plaintiff contends that he was
subdued and compliant during his arrest. The district
court found that the video blatantly contradicts this
account. We respectfully disagree. The video is inadequate to show the actions of all parties during the 20second period. Notably, not only is the video blurry, but
one of the officers obstructs the view of Plaintiff ’s torso,
making it impossible to determine whether Plaintiff
was, as Defendants alleged, moving his upper body and
arms to resist arrest. Therefore, the district court could
not rely on the video as requiring summary judgment.
See Scott, 550 U.S. at 380 (explaining that videos relied
on for summary judgment must “blatantly contradict”
the nonmoving party’s version of the facts).
Taking the facts in the light most favorable to
Plaintiff, a reasonable jury could conclude that Defendants continued to beat Plaintiff after he was effectively
subdued. And under the Graham factors this would be
a violation of his constitutional rights. Although Plaintiff ’s crimes were significant (he had led officers on a
high-speed chase, he had weapons on his person, and
he ran from arresting officers), under his version of
events—that he was trying to lie down with his hands
out to show he was not resisting—he did not “pose[ ] an
immediate threat to the safety of the officers or others,”
Graham, 490 U.S. at 396. Defendants are free to argue
to a jury that Plaintiff was not subdued, but this disputed issue of material fact precludes summary judgment.
Having concluded that Plaintiff established a constitutional violation, “we next address whether—at the

App. 8
time of the events of this case—it was clearly established that [Defendants’] actions constituted excessive
force.” Perea v. Baca, 817 F.3d 1198, 1204 (10th Cir.
2016). “It is clearly established that specific conduct violates a constitutional right when Tenth Circuit or Supreme Court precedent would make it clear to every
reasonable officer that such conduct is prohibited.” Id.
But “the qualified immunity analysis involves more
than a scavenger hunt for prior cases with precisely
the same facts.” Id. (internal quotation marks omitted).
We have held that an officer violated clearly established law by shooting the victim after the officer had
“enough time to recognize and react to the changed circumstances and cease firing his gun.” Fancher v. Barrientos, 723 F.3d 1191, 1201 (10th Cir. 2013) (ellipsis
and internal quotation marks omitted); cf. Dixon v.
Richer, 922 F.2d 1456, 1463 (1 0th Cir. 1991) (officers’
continued use of force after the plaintiff “had already
been frisked, had his hands up against the van with
his back to the officers, and was not making any aggressive moves or threats” was unreasonable). Thus, “it
is clearly established that officers may not continue to
use force against a suspect who is effectively subdued.”
Estate of Smart v. City of Wichita, 951 F.3d 1161, 2020
WL 913089, at *10 (10th Cir. Feb. 26, 2020) (ellipsis
and internal quotation marks omitted); see id. at *1
(analyzing applicable clearly established law where
events at issue occurred on March 10, 2012); id. at *10
n.14 (explaining that court relied on cases postdating
the events at issue because those cases relied on

App. 9
caselaw predating those events). “Force justified at the
beginning of an encounter is not justified even seconds
later, if the justification for the initial force has been
eliminated.” Id. at *10 (brackets and internal quotation marks omitted). Taking the facts in the light most
favorable to Plaintiff, Defendants violated clearly established law if they continued beating Plaintiff after
it would have been clear to a reasonable officer that he
had been effectively subdued.
We reverse the district court’s order granting qualified immunity to Defendants on Plaintiff ’s excessiveforce claim and remand for further proceedings.
B. Appointment of Counsel
Plaintiff claims the district court erred in denying
his three motions for appointment of counsel. We review the denial of a motion for appointment of counsel
in a civil case for abuse of discretion. See Toevs v. Reid,
685 F.3d 903, 916 (10th Cir. 2012). “Only in those extreme cases where the lack of counsel results in fundamental unfairness will the district court’s decision be
overturned.” Id. (internal quotation marks omitted).
“The burden is on the applicant to convince the court
that there is sufficient merit to his claim to warrant
the appointment of counsel.” Hill v. SmithKline Beecham Corp., 393 F.3d 1111, 1115 (10th Cir. 2004) (internal quotation marks omitted). We reject Plaintiff ’s
claim. We discern no abuse of discretion in the district
court’s denial of appointment of counsel.

App. 10
C. Official-Capacity Claims
Plaintiff assigns error to the order dismissing his
official-capacity claims against Officers Jones and
Wright. The district court adopted the magistrate
judge’s recommendation to dismiss these claims for
failure to state a claim under 28 U.S.C. §§ 1915A(b)(1)
& 1915(e)(2)(B)(ii), a decision we review de novo, see
Young v. Davis, 554 F.3d 1254, 1256 (10th Cir. 2009)
(reviewing dismissal under § 1915A); Kay v. Bemis, 500
F.3d 1214, 1217 (10th Cir. 2007) (reviewing dismissal
under § 1915(e)(2)(B)(ii)).
“Suing individual defendants in their official capacities under § 1983 . . . is essentially another way of
pleading an action against the county or municipality
they represent.” Porro v. Barnes, 624 F.3d 1322, 1328
(10th Cir. 2010). To state an official-capacity claim,
Plaintiff was required to “identify a specific deficiency
that was obvious and closely related to his injury, so
that it might fairly be said that the official policy or
custom was both deliberately indifferent to his constitutional rights and the moving force behind his injury.”
Id. (citation and internal quotation marks omitted).
On appeal Plaintiff asserts that he requested
through discovery the police policy and standard operating procedures, but was unable to obtain them via
the Internet as Defendants directed because he did not
have Internet access in prison. The record reflects that
Plaintiff requested production of the policies and included Defendants’ failure to produce them in his initial motion to compel discovery. But he did not pursue

App. 11
this matter in the subsequent proceedings concerning
discovery, nor did he invoke Fed. R. Civ. P. 56(d), which
requires a plaintiff to file an affidavit if additional discovery is needed to respond to a summary judgment
motion. Therefore, we affirm the order dismissing
Plaintiff ’s official-capacity claims against Officers
Jones and Wright.
Plaintiff also contends that he was entitled to a
default judgment against Defendants in their official
capacities because they never answered the magistrate judge’s order requiring service of a response to
the complaint and a special report. He argues that because he “marked the box for both individual and official capacitys [sic]” on his amended complaint,
Defendants defaulted those claims when they failed to
include in their answer a response to any official-capacity claims. Aplt. Opening Br. at 17. But the district
court had dismissed the official-capacity claims before
Plaintiff filed his amended complaint, and the magistrate judge’s order required a response pertaining to
Officers Jones and Wright only in their individual capacities. The district court did not err in denying Plaintiff ’s motion for a default judgment.
D. Amendment of Complaint to Add Defendants
Finally, Plaintiff appeals the order denying his
motion to amend his complaint to add new

App. 12
defendants.2 He sought to add as defendants Sergeant
Deon and Mustang Police Officer Carpenter, claiming
they failed to intervene in the actions of defendants
Jones and Wright. In the proposed amended complaint,
Plaintiff asserted that the date of injury was November 25, 2014. He filed his motion to add defendants on
December 22, 2017, over three years after the date of
injury. The district court denied leave to add these defendants because the applicable two-year statute of
limitations had expired. See Okla. Stat. tit. 12,
§ 95(A)(3) (imposing a two-year limitations period for
“an action for injury to the rights of another, not arising on contract”); see also Meade v. Grubbs, 841 F.2d
1512, 1523 (10th Cir. 1988) (holding two-year statute
of limitations applies to § 1983 claims), abrogated in
part on other grounds by Ashcroft v. Iqbal, 556 U.S. 662,
676 (2009).
Plaintiff asserts that he did not discover the facts
underlying his claims against the proposed defendants
until he received the special report containing the
video and Defendants’ responses to his discovery requests. Accordingly, he contends that the limitations
period did not begin to run until he learned of the proposed defendants’ violation of his rights. Plaintiff ’s
proposed new claims were § 1983 claims, so federal
law governs when the action accrues. See Braxton v.
Zavaras, 614 F.3d 1156, 1159 (10th Cir. 2010). “A civil
rights action accrues when the plaintiff knows or has
2

Plaintiff does not challenge on appeal the district court’s
denial of his proposed amendment to reinstate his claims against
Officers Jones and Wright in their official capacities.

App. 13
reason to know of the injury which is the basis of the
action. Indeed, it is not necessary that a claimant know
all of the evidence ultimately relied on for the cause of
action to accrue.” Price v. Philpot, 420 F.3d 1158, 1162
(10th Cir. 2005) (citation and internal quotation marks
omitted). Here, the injury that is the basis for this
action is Plaintiff ’s November 25, 2014, arrest, which
he knew of at the time of the arrest; thus, his claims
accrued on that date. See Johnson v. Johnson Cty.
Comm’n Bd., 925 F.2d 1299, 1301 (10th Cir. 1991)
(“Claims arising out of police actions toward a criminal
suspect, such as arrest, interrogation, or search and
seizure, are presumed to have accrued when the actions actually occur.”).
Plaintiff relies on Fed. R. Civ. P. 15(c)(1)(B) to argue that his proposed new claims relate back to the
date he filed his original complaint, thus making his
new claims timely. For an amended complaint adding
a new party to relate back, Rule 15(c)(1) requires the
following: (1) the claim arose out of the same conduct
or occurrence alleged in the original pleading, Rule
15(c)(1)(B); (2) the proposed new party “received such
notice of the action that it will not be prejudiced in defending on the merits,” id. 15(c)(1)(C)(i); (3) the proposed new party “knew or should have known that the
action would have been brought against it, but for a
mistake concerning the proper party’s identity,” id.
15(c)(1)(C)(ii); (4) the second and third criteria were
met within 90 days of the filing of the original complaint, see id. 15(c)(1)(C); and (5) the original complaint
was filed within the applicable limitations period, see
id. 15(c)(1)(A); see also Hogan v. Fischer, 738 F.3d 509,

App. 14
517 (2d Cir. 2013) (setting out these requirements for
an amended complaint to relate back); May v. Segovia,
929 F.3d 1223, 1231 (10th Cir. 2019) (noting stringent
restrictions on relation back when adding a new defendant). He has failed to make the required showing.
And he does not argue that he qualified for tolling of
the statute of limitations under Oklahoma’s strict construction of exceptions to a statute of limitations. See
Resolution Tr. Corp. v. Grant, 901 P.2d 807, 813 (Okla.
1995) (“Exceptions to statutes of limitation are strictly
construed and are not enlarged on consideration of apparent hardship or inconvenience.”); see also Braxton,
614 F.3d at 1159 (equitable tolling is governed by state
law). Therefore, we affirm the order denying leave to
amend to add new defendants.
IV. CONCLUSION
We grant Plaintiff ’s motion for leave to proceed in
forma pauperis on appeal, and we remind him of his
obligation to continue making partial payments until
the entire appellate filing fee is paid. We reverse the
district court’s order granting qualified immunity to
Defendants on Plaintiff ’s excessive-force claim and remand that claim for further proceedings consistent
with this order and judgment. We affirm the district
court’s judgment in all other respects.
Entered for the Court
Harris L Hartz
Circuit Judge

App. 15
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF OKLAHOMA
WAYNE DUKE KALBAUGH, )
)
Plaintiff,
)
v.
) Case No.
OKLAHOMA CITY POLICE ) CIV-16-1314-R
)
DEPARTMENT; JACOB
)
JONES, Police Officer,
)
individual capacity; and
)
BRYAN WRIGHT, Police
Officer, individual capacity, )
)
Defendants.
)
REPORT AND RECOMMENDATION
(Filed Oct. 2, 2018)
Through his verified amended complaint,1 Wayne
Duke Kalbaugh (Plaintiff ), appearing pro se,2 seeks
monetary relief under 42 U.S.C. § 19833 from Oklahoma City Police Department (OCPD) officers Jacob
Jones and Bryan Wright (Defendants) in their individual capacities, claiming they “stripped [his] rights
1

Plaintiff ’s amended complaint, Doc. 18, is the operative
pleading in this matter. This Court previously denied Plaintiff ’s
motion to file a second amended complaint naming, in part, William Carpenter and Kevin Deon as additional Defendants. See
Docs. 81, 89, 93.
2
The undersigned construes Plaintiff ’s pro se filings liberally. See Hall v. Bellmon, 935 F.2d 1106, 1110 (10th Cir. 1991).
3
See Doc. 18, at 2.

App. 16
under the Fourth Amendment”4 through the “excessive
use of force” when taking him into custody after a highspeed car pursuit and foot chase.5 Doc. 18, at 9.6 He
alleges that “[a]t the time of this incedent [he had] surrendered and was placed on the ground with [his]
hands placed behind [his] back by [a] member of the
army reserve. . . .” Id. at 10. He further claims he “was
not trying to flee or resist arrest . . . when both [Defendants] aproched [him] and proceded to severly and
unjustly beat [him].” Id. And, he concludes that “[b]oth
officers used a degree of force that was outrageousley
above the use of force nescery to place hand cuff ’s on
[him] who was of no threat.” Id. at 10-11.
Plaintiff has now moved for summary judgment,
see Doc. 104, as have Defendants who jointly assert entitlement to qualified immunity. See Doc. 105. After

4

Plaintiff also alleges that he was “subject[ed] to cruel and
unusual punishment” in violation of the Eighth Amendment. Doc.
18, at 9. But “[a]ny force used leading up to and including an
arrest [is] actionable under the Fourth Amendment’s prohibition
against unreasonable seizures,” while the Eighth Amendment
governs “claims of excessive force involving convicted prisoners
. . . under the Eighth Amendment.” Estate of Booker v. Gomez, 745
F.3d 405, 419 (10th Cir. 2014) (internal quotation marks omitted).
5
United States District Judge David L. Russell has referred
the matter to the undersigned Magistrate Judge for initial proceedings consistent with 28 U.S.C. § 636(b)(1)(B), (C). See Doc. 4.
6
Citations to a court document are to its electronic case filing
designation and pagination. The undersigned alters Plaintiff ’s
use of the uppercase. Otherwise, quotations are verbatim unless
shown.

App. 17
careful review, the undersigned recommends that this
Court grant Defendants’ motion.7
I.

The summary judgment facts.
A. Summary judgment principles.

A “court shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(1). A fact
is “material” if it “might affect the outcome of the suit
under the governing law.” Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 248 (1986). And a “genuine dispute”
exists if “the evidence is such that a reasonable jury
could return a verdict for the nonmoving party.” Id.
“[O]n summary judgment, ‘a court must view the
evidence in the light most favorable to the opposing
party’ and ‘draw inferences in favor of the nonmovant.’ ” McCoy v. Meyers, 887 F.3d 1034, 1039 (10th
Cir. 2018) (quoting Tolan v. Cotton, 572 U.S. 650, 134
S. Ct. 1861, 1866 (2014) (brackets omitted)). A court
“[t]herefore resolve[s] ‘genuine disputes of fact’ in the
record in favor of [the nonmovant].’ ” Id. “But for dispositive issues on which [Plaintiff ] will bear the
burden of proof at trial, the record must contain evidence that is based on more than mere speculation,

7

Plaintiff ’s motion for summary judgment is grounded on
the same facts and on the same legal analysis. See Doc. 104. Necessarily, then, the undersigned further recommends that this
Court deny his motion. See id.

App. 18
conjecture, or surmise.” Id. (internal quotation marks
omitted).
Under this Court’s local civil rules (LCvR) governing summary judgment procedure, “[t]he brief in opposition to a motion for summary judgment . . . shall
begin with a section responding, by correspondingly
numbered paragraph, to the facts that the movant contends are not in dispute and shall state any fact that
is disputed.” LCvR56.1(c). Any “material facts set forth
in the statement of material facts of the movant may
be deemed admitted for the purpose of summary judgment unless specifically controverted by the nonmovant using the procedures set forth in this rule. Id.
56.1(e).
B. Facts from Plaintiff ’s state court criminal proceedings.
The testimony cited by the parties in support of
various statements of fact was given at Plaintiff ’s
criminal jury trial. The undersigned takes judicial
notice that the State of Oklahoma brought criminal
charges against Plaintiff in the District Court of
Oklahoma County based on his actions bearing on Defendants’ use of force.8 See http://www.oscn.net/dockets/
GetCaseInformation.aspx?db=oklahoma&number=
8

See Fed. R. Evid. 201; see also United States v. Pursley, 577
F.3d 1204, 1214 n.6 (10th Cir. 2009) (noting court’s “discretion to
take judicial notice of publicly-filed records in our court and certain other courts concerning matters bearing directly upon the
disposition of the case at hand”) (internal quotation marks omitted).

App. 19
CF-2014-8557&cmid=3209131. A jury found Plaintiff
guilty of Aggravated Attempting to Elude an Officer,
Possession of Methamphetamine, Possession of a Firearm After Conviction of a Felony, and Possession of an
Offensive Weapon in the Commission of a Felony. See
id. docket entry dated Feb. 9, 2017. By summary opinion, the Oklahoma Court of Criminal Appeals affirmed
the trial court’s Judgment and Sentence and outlined
the factual underpinnings of Plaintiff ’s criminal conviction:
[Plaintiff ] was convicted of crimes stemming
from a high-speed pursuit in November 2014.
Police attempted a traffic stop on [Plaintiff ’s]
vehicle after observing it at a suspected drug
house. . . . A chase ensued. When the vehicle
eventually stopped . . . [Plaintiff ] exited with
two firearms and a knife on his person. Inside
his car police found a kit of smoking pipes,
scales, and small plastic baggies. Methamphetamine residue was found on this paraphernalia. Two more firearms were also found
in the car. At trial, [Plaintiff ] testified and admitted (1) that he was a multiple felon, (2)
that all the firearms were his, and (3) that he
had smoked methamphetamine shortly before
the chase.
Kalbaugh v. Oklahoma, No. F-2017-304, slip op. at 2
(Okl. Crim. App. May 3, 2018).9

9

See http://www.oscn.net/dockets/GetCaseInformation.aspx?
db=appellate&number=F-2017-304.

App. 20
C. Facts from the parties’ factual statements.
It is uncontroverted that on November 25, 2014,
an OCPD officer initiated a traffic stop of a red Toyota
Corolla. The driver initially stopped but drove off as
the officer approached the car. The driver then bailed
out of the moving car and Plaintiff, who had been in
the passenger seat, jumped into the driver’s seat and
drove on at a high rate of speed in heavy rush hour
traffic. The officer followed the car for several miles before a police helicopter arrived at the scene and took
over the pursuit for safety reasons. A local news station’s helicopter also followed the car during the latter
part of the pursuit. The news station’s video of the
pursuit, see Doc. 32 [Video], shows Plaintiff speeding,
driving in the median, driving on the shoulder, and
running red lights.10 See Video, at 0:09 to 3:26.11
There is also no dispute that Defendant Jones
heard and followed the pursuit. He set up stop sticks
to try to stop the car, but Plaintiff was able to evade
the stop sticks by turning into a parking lot and cutting across the grass to a private road. See Video, at
3:26 to 3:46. Defendant Wright also heard the pursuit
and followed Defendant Jones. The private road deadended, and it was blocked by a chain-link fence around
a National Guard facility. See Video, at 3:46 to 4:04.
Plaintiff then backed up the dead-end road and drove
10

See Doc. 105, at 7-9 ¶¶ 1, 2-5; see also Doc. 115, at 2-3 ¶¶ 1,

2-5.
11

All references to specific time-markers are to the undersigned’s best approximations after reviewing the Video in normal,
enlarged, and frame-by-frame modes.

App. 21
in reverse, but police cars approaching from behind
him blocked his attempted exit. At that point, Plaintiff
accelerated forward and tried—unsuccessfully—to
crash through the chain-link fence. Because of the
crash, Plaintiff ’s car became inoperable.12 See Video, at
4:05 to 4:22.
The parties also agree that when Plaintiff then
stepped out of car, he had handguns within his reach—
three guns according to Plaintiff, including one that
fell from his lap—and he put his hands in the air.13 Defendant Jones ordered him not to move and to keep his
hands up.14 Instead, Plaintiff pulled two guns from his
waistband,15 dropped them on the ground and, with his
hands once again in the air, backed away from the officers just long enough to step over the downed fence.16
As soon as he was over the fence, he turned and ran to
the National Guard facility’s parking lot.17 Defendants
12

See Doc. 105, at 9-10 ¶¶ 6-9; see also Doc. 115, at 3 ¶¶ 6-9.
See Doc. 105, at 10-11 ¶ 10; see also Doc. 115, at 3-4 ¶ 10.
The undersigned, as required, has accepted Plaintiff ’s version of
both the number of guns and the sequence of these events.
14
See Doc. 105, at 10-11 ¶ 11; see also Doc. 115, at 4 ¶ 11.
Plaintiff does not deny that Defendant Jones issued those commands, stating instead that “[a]ll he heard is someone yelling
shoot him.” Doc. 115, at 4 ¶ 11.
15
Plaintiff states that he did so “in the most nonthreatening
way. . . .” Doc. 115, at 3-4 ¶ 10.
16
See Doc. 105, at 10-11 ¶¶ 10, 12; see also Doc. 115, at 3-4
¶¶ 10, 12.
17
See Doc. 105, at 11 ¶ 12; see also Doc. 115, at 4 ¶ 12. Once
again, Plaintiff does not contradict this. But, as before, he states
this was “only after hearing someone yelling shoot him.” Doc. 115,
at 4 ¶ 12.
13

App. 22
pursued him on foot, and Defendant Wright continued
to shout commands for him to stop.18 See Video, at 4:25
to 4:50.
Further, it is uncontested that Sergeant Kevin
Deon, an Army reservist, was in the National Guard
facility’s parking lot when Plaintiff rammed the fence.
He saw Plaintiff get out of the vehicle with a gun. He
was concerned there would be a shoot-out between
Plaintiff and the police officers because he had seen
Plaintiff with one gun and was concerned he might
have another. He was also concerned that Plaintiff
might enter the building with a weapon if he made it
all the way across the parking lot.19
Defendant Wright fell during the foot pursuit,20
and Plaintiff encountered Sergeant Deon before Defendant Wright caught up.21 See Video, at 4:41 to 4:55.
Sergeant Deon put Plaintiff on the ground then
jumped on the back of his neck and slammed his face
into the concrete with the full force of his body
weight.22 See Video, at 4:55 to 4:56. He straddled
18

See Doc. 105, at 11 ¶ 13; see also Doc. 115, at 4 ¶ 13. Plaintiff does not contest the fact that Defendant Wright ordered him
to stop. Instead, he swears that he “never heard [Defendant]
Wright give any commands to stop.” Doc. 115, at 4 ¶ 13.
19
See Doc. 105, at 11-12 ¶ 14; see also Doc. 115, at 4 ¶ 14.
20
"[P]laintiff believes this is part of the reason Defendant
Wright was mad at the plaintiff and beat him.” Doc. 115, at 4-5
¶ 15.
21
See Doc. 105, at 12 ¶ 15; see also Doc. 115, at 4-5 ¶ 15.
22
See Doc. 105, at 12 ¶ 16; see also Doc. 115, at 5 ¶ 16. According to Plaintiff ’s evidence, Sergeant Deon weighed 210
pounds. See Doc. 115, Ex. 6, line 16. Sergeant Deon also testified

App. 23
Plaintiff until Defendants reached them23—Defendant
Wright first and then Defendant Jones—within seconds of the takedown.24 See Video, at 4:58, 5:02.
At this point, the parties’ versions of events diverge. They agree that Defendants struck Plaintiff before he was handcuffed25 but disagree on details,
including the number of strikes.26 And in response to
Defendants’ description of the efforts required to subdue him and the perception that he was reaching for a
knife in his back pocket,27 Plaintiff submits that the
strikes were purely gratuitous: He denies that he
reached for his knife28 or struggled with Defendants in
at the criminal trial that Plaintiff attempted to buck him off. See
Doc. 105, at 12 ¶ 16; see also id. Ex. 11, p. 19, lines 2-3. Plaintiff
denies this and generally claims that Sergeant Deon “exagerated
his use of force on [him] due to his extreme haterid tords [him].”
Doc. 115, at 5 ¶ 16.
23
See Doc. 105, at 12 ¶ 16; see also Doc. 115, at 5 ¶ 16.
24
See Doc. 105, at 12-13 ¶¶ 16, 17, 19; see also Doc. 115, at
5-6 ¶¶ 16, 17, 19.
25
See Doc. 105, at 12-14 ¶¶ 18, 20, 21, 22; see also Doc. 115,
at 5-8 ¶¶ 18-23.
26
According to Defendant Wright, he struck Plaintiff a total
of three times. See Doc. 105, at 12 ¶ 18. Plaintiff denies this, but
states only that it was “more than three times.” Doc. 115, at 5
¶ 18. Defendant Jones states that he “struck [Plaintiff ] several
times in the face.” Doc. 105, at 13 ¶ 20. Plaintiff swears Defendant
Jones struck him “more than just a few times being several times
in the face, head, neck and back with evil intent.” Doc. 115, at 67 ¶ 20.
27
See Doc. 105, at 12-14 ¶¶ 18-22.
28
Plaintiff does not deny there was a knife in his back pocket.
See Doc. 115, at 5-6, ¶ 18. Instead, he submits he “didn’t even remember he had the knife on his person. . . .” Id.

App. 24
resisting their efforts to take him into custody, and he
depicts himself as compliant, with his arms immobilized.29 This echoes his verified allegations in his
amended complaint: “[a]t the time of this incedent [he
had] surrendered” and had been “placed . . . on the
ground on [his] stomic with [his] hands behind [his]
back” by Sergeant Deon. Doc. 18, at 10.
Nonetheless, another of Plaintiff ’s verified statements plainly contradicts his assertion that he was
lying motionless with his hands behind his back at the
time of “this incedent.” Id. In moving for summary
judgment, Plaintiff averred that “once [Defendants
Wright and Jones] arive [he] heard one say cuff up
so [he] attempted to put his hands behind his back.”30
So, in that version of events, Plaintiff ’s hands were not
behind his back, and he was admittedly moving.
Finally, the Video also appears to show that Plaintiff was in motion with free use of his legs and not, as
he contends, passive and compliant, and under the control of Defendants at the time of the incident. See id.
at 4:58 to approximately 5:22.31 And where, as here,
“opposing parties tell two different stories, one of
29

See Doc. 115, at 6-7 ¶¶ 18-22.
See Doc. 104, at 11-12 ¶ 6.
31
Plaintiff endorses this “News 9 video footage.” Doc. 18, at
7. And, while it is difficult (if not impossible) to make out precise
details in the twenty or so seconds between the time Defendants
Wright and Jones both reached Plaintiff and the time they clearly
had him sitting up and under control, see Video, at 4:58 to 5:22,
the fact that Plaintiff was not subdued during that time is evident.
30

App. 25
which is blatantly contradicted by the record, so that
no reasonable jury could believe it, a court should not
adopt that version of the facts for purposes of ruling on
a motion for summary judgment.” Scott v. Harris, 550
U.S. 372, 380 (2007). Factually, Plaintiff was not subdued at the time Defendants used force.
The parties agree that Plaintiff received medical
treatment for injuries at the scene; that an OCDP officer transported him to the hospital as required by
OCPD policy; that he was cleared and released back
into the custody of the OCPD; and, finally, that he
acknowledged at his criminal trial that he did not
know if any of his injuries were caused by Sergeant
Deon instead of Defendants Jones and Wright because
“[e]verything happened so fast.”32
III. Application of the law to the summary
judgment facts.
A. Qualified immunity.
“Public officials enjoy qualified immunity in civil
actions that are brought against them in their individual capacities and that arise out of the performance of
their duties.” McCoy, 887 F.3d at 1044 (brackets and
internal question marks omitted).33 “They are entitled
to qualified immunity if their conduct does not violate

32

See Doc. 105, at 14-15 ¶¶ 24, 26; see also Doc. 115, at 8-9
¶¶ 24, 26.
33
Plaintiff is mistaken that “qualified immunity is not available to individual capacity suits.” Doc. 115, at 11.

App. 26
clearly established statutory or constitutional rights.”
Id. (internal quotation marks omitted).
B. Two-prong analysis.
On summary judgment, a court can determine
entitlement to qualified immunity on either of two
prongs. Id. at 1045. The first prong questions whether
the facts, as construed in favor of the party claiming
injury, show that Defendants violated a constitutional
right, and the second prong questions whether that
right was clearly established when the violation occurred. Id. at 1044.
The undersigned addresses both prongs alternatively.
1. First prong—violation of a constitutional right.
Any “claim[ ] that law enforcement officers have
used excessive force . . . in the course of an arrest,
investigatory stop, or other ‘seizure’ of a free citizen [is]
analyzed under the Fourth Amendment and its ‘reasonableness’ standard. . . .” Graham v. Connor, 490
U.S. 386, 395 (1989). “[T]he right to make an arrest or
investigatory stop necessarily carries with it the right
to use some degree of physical coercion or threat
thereof to effect it.” Id. at 396. The issue for the court
is “whether the officers’ actions are objectively reasonable in light of the facts and circumstances confronting
them, without regard to their underlying intent or

App. 27
motivation.” Id. at 397. Factors to consider when evaluating the reasonableness of the officers’ actions include “the severity of the crime at issue, whether the
suspect poses an immediate threat to the safety of the
officers or others, and whether the suspect is actively
resisting arrest or attempting to evade arrest by
flight.” Id. at 396.
“The ‘reasonableness’ of a particular use of force
must be judged from the perspective of a reasonable
officer on the scene, rather than with the 20/20 vision
of hindsight.” Id. A court’s “calculus of reasonableness
must embody allowance for the fact that police officers
are often forced to make split-second judgments—in
circumstances that are tense, uncertain, and rapidly
evolving—about the amount of force that is necessary
in a particular situation.” Id. at 396-97.
The “situation” facing Defendants in this case included these “particular[s]”: (1) Plaintiff had just led
police on a high-speed car chase; (2) then, when cornered, he had accelerated off a dead-end road in an
attempt to crash his car through a chain-link fence;
(3) Defendants had seen him with firearms on his person;34 (4) then, although he had put his hands in the
air, he had run from Defendants and the other assembled officers who were moving toward him with their
weapons drawn and aimed; and (5) he had ignored
commands to stop during the ensuing foot pursuit. Id.
at 397. See Video, at 0:09 to 4:50.
34

That Plaintiff dropped three guns does not obviate this
fact. It could not be known that he had no others.

App. 28
In sum, when Defendants were finally able to
catch up with Plaintiff—only seconds after Sergeant
Deon had grounded him—and used force, they were
apprehending an individual who had just committed a
life-endangering offense, was unpredictable and possibly armed—“a threat to safety,”—and had used extreme and irrational measures to elude them and avoid
capture. Graham, 490 U.S. at 396. Each of the three
Graham factors weighs in favor of Defendants, see id.,
and their use of force was objectively reasonable under
the facts and circumstances presented here.
Under the facts “taken in the light most favorable
to [Plaintiff ],” Defendants’ use of force did not violate
his Fourth Amendment rights. McCoy, 887 F.3d at
1044.
2. Second prong—clearly established law.
Alternatively, under the second prong of the qualified immunity analysis, “no reasonable jury could conclude that [Plaintiff ] was effectively subdued” when
Defendants used force in this case, and “preexisting
precedent would not have made it clear to every reasonable officer that using the force employed here on a
potentially dangerous individual—who has not yet
been effectively subdued—violates the Fourth Amendment.” McCoy, 887 F.3d at 1048. Thus, Plaintiff “has
[also] failed to show clearly established law.” Id.
In McCoy, a police officer pulled the plaintiff, Mr.
McCoy, off a motel room bed to arrest him after a hostage standoff. See id. at 1040. The officer, believing

App. 29
Mr. McCoy was trying to take his gun, yelled out a
warning. Id. “Once Mr. McCoy was on the ground, lying
face-down with his hands behind his back, [a Defendant officer] ‘immediately’ placed him in a carotid restraint” and other officers ‘simultaneously’ pinned
[Plaintiff ] down and hit him in the head, shoulders,
back, and arms.” Id. at 1040-41. The officer “maintained the carotid restraint for approximately five to
ten seconds and increased pressure, even though
[Plaintiff ] was not resisting, thereby causing [Plaintiff ] to lose consciousness.” Id. at 1041. “While [Plaintiff ] was unconscious, the officers handcuffed his
hands behind his back and zip-tied his feet together.”
Id.
The court first held that “[n]o reasonable jury
could conclude that Mr. McCoy was effectively subdued
when the allegedly excessive pre-restraint force occurred.” Id. at 1048. It explained that “[w]hether an
individual has been subdued from the perspective of
a reasonable officer depends on the officer having
enough time to recognize that the individual no longer
poses a threat and react to the changed circumstances.” Id. (brackets and internal quotation marks
omitted). Under the circumstances before it, the court
concluded that “[e]ven if [Plaintiff ] was, as he maintains, lying down with his hands behind his back and
with several officers pinning him, . . . reasonable officer[s] in [Defendants’] position could conclude that he
was not subdued when the allegedly excessive force
occurred.” Id. (citation omitted). Then, after examining

App. 30
the cases cited by Mr. McCoy,35 the court determined
that “[u]nder these circumstances, the preexisting
precedent would not have made it clear to every reasonable officer that striking Mr. McCoy and placing a
carotid restraint on him violated his Fourth Amendment rights.” Id.
The same rationale applies here. Defendants
were in full pursuit of Plaintiff—an undeniable safetythreat and flight-risk—when a bystander took him to
the ground. Only seconds elapsed before Defendants
caught up. This was not “enough time to recognize
that [he] no longer pose[d] a threat and react to the
changed circumstances” and “reasonable officer[s] in
[Defendants’] position could conclude that [Plaintiff ]
was not subdued when the allegedly excessive force
occurred.” Id.
Likewise, “[t]he cases cited by” Plaintiff “would not
have made it clear to every reasonable officer that
striking [Plaintiff ] violated his Fourth Amendment
rights.” Id. at 1048-49. Both in his own motion for
summary judgment, see Doc. 104, at 1-29, and in his
response to Defendants’ motion, see Doc. 115, at 1-14,
Plaintiff cited the following authorities and explained
his rationale for doing so:

35

The court examined “three Tenth Circuit cases published
before the events at issue in th[e] appeal": Dixon v. Richer, 922
F.2d 1456 (10th Cir. 1991); Casey v. City of Federal Heights, 509
F.3d 1278 (10th Cir. 2007); and Weigel v. Broad, 544 F.3d 1143
(10th Cir. 2008). McCoy, 887 F.3d at 1045.

App. 31
•

Proffitt v. Ridgway, 279 F.3d 503, 506 (7th Cir.
2002), for the proposition that “once an arrestee is under the custody of an official, the
said official has a duty to provide for the arrestee’s safety,” Doc. 104, at 12 ¶ 9;

•

Mick v. Brewer, 76 F.3d 1127, 1137 (10th Cir.
1996), for the proposition that “[a]n official
who does not prevent another official from using excessive force has been held ineligible
for qualified immunity,” Doc. 104, at 21 ¶ 39;

•

Turner v. Scott, 119 F.3d 425, 429 (6th Cir.
1997), citing three bases for excessive force
liability under the law of the Sixth Circuit,
Doc. 104, at 22 ¶ 40;

•

Latta v. Keryte, 118 F.3d 693, 701 (10th Cir.
1997), citing factors to consider in determining whether the “use of force is excessive,”
Doc. 105, at 24 ¶ 47;

•

Henry v. Storey, 658 F.3d 1235, 1239 (10th Cir.
2011), citing factors used to determine if a use
of force is reasonable, Doc. 104, at 25 ¶ 48;

•

Okla. Stat. tit. 21 § 151, contending both Defendants violated a state crime, Doc. 104, at
26 ¶ 50;

•

Filartiga v. Pena-Irala, 630 F.2d 876, 883 (2d
Cir. 1980), asserting that “[b]oth Defendants
violated customary international law,” Doc.
104, at 26 ¶ 51; and

•

Priester v. City of Riviera Beach, Fla., 208 F.3d
919, 924 (11th Cir. 2000), pointing to the
court’s “hold[ing] that a police officer was not

App. 32
entitled to qualified immunity when he failed
to interfere when other officers used excessive
force.” Doc. 115, at 11.
None of these authorities bear on Plaintiff ’s allegations, see Doc. 18, or, as with the recitation of the
Graham factors in Henry, are determinative.36 His
specific citations to both Proffitt and Latta relate to
Fourteenth Amendment claims; the cited holdings in
Mick and Priester are not pertinent to his allegations
and, in any event, neither Defendant would have been
in position to intervene with the other under the facts
of this case; Turner applies the law of the Sixth Circuit;
Filartiga involves claims of torture under international law; and Okla. Stat. tit. 21 § 151 appears to be a
miscite.
Plaintiff “has failed to show clearly established
law prohibiting [Defendants’] use of force” and Defendants “are therefore entitled to qualified immunity as
to [Plaintiff ’s] claims based on this conduct.” McCoy,
887 F.3d at 1049.
IV. Recommendation and notice of right to object.
For the stated reasons, the undersigned recommends that this Court deny Plaintiff ’s Motion for
Summary Judgment, Doc. 104, and grant the Motion
36

In responding to Defendants’ motion, Plaintiff lists various
case names but does not explain their applicability to the instant
action. See Doc. 115, at 11. As such, the undersigned will not speculate on his behalf.

App. 33
for Summary Judgment of Defendants Jacob Jones
and Bryan Wright, Doc. 105.
The undersigned advises the parties of the right to
file an objection to this Report and Recommendation
with the Clerk of Court on or before October 23, 2018,
under 28 U.S.C. § 636(b)(1) and Fed. R. Civ. P. 72(b)(2).
The undersigned further advises the parties that failure to file a timely objection to this Report and Recommendation waives the right to appellate review of both
factual and legal issues contained herein. See Moore v.
United States, 950 F.2d 656, 659 (10th Cir. 1991).
This Report and Recommendation disposes of all
issues and terminates the referral to the undersigned
Magistrate Judge in the captioned matter.
ENTERED this 2nd day of October, 2018.
/s/ Suzanne Mitchell
SUZANNE MITCHELL
UNITED STATES
MAGISTRATE JUDGE

App. 34
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF OKLAHOMA
WAYNE DUKE KALBAUGH, )
)
Plaintiff,
)
v.
) Case No.
) CIV-16-1314-R
JACOB JONES and
)
BRYAN WRIGHT,
)
Defendants.
)
ORDER
(Filed Oct. 31, 2018)
This matter comes before the Court on Plaintiff ’s
timely objection to the October 2, 2018 Report and Recommendation issued by Judge Suzanne Mitchell,
wherein she recommends that Plaintiff ’s Motion for
Summary Judgment be denied and that Defendants’
Motion for Summary Judgment be granted. (Doc.No.
118). The objection gives rise to this Court’s obligation
to undertake a de novo review of those portions of the
Report and Recommendation to which Plaintiff makes
specific objection. Having considered the Report and
Recommendation and objection thereto, the Court
finds as follows.
Plaintiff alleges that he was subjected to excessive
force by Oklahoma City Police Officer Jones and Officer Wright during his arrest on November 25, 2014,
following a high-speed vehicle chase and Plaintiff ’s

App. 35
subsequent attempt to flee on foot. Judge Mitchel concluded the Defendants, against whom only individual
capacity claims remain, are entitled to qualified immunity. Her conclusion was that, construed in the light
most favorable to Plaintiff, the facts failed to establish
that Defendant Jones or Defendant Wright violated
Mr. Kalbaugh’s constitutional rights. Judge Mitchell
further recommended dismissal in Defendants’ favor
on the basis that Plaintiff ’s constitutional rights under
the facts of this case were clearly established in November 2014. Citing McCoy v. Meyers, 887 F.3d 1034
(10th Cir. 2018), Judge Mitchell concluded that Plaintiff presented a safety-threat and flight risk and that
Defendants lacked sufficient time to recognize that
Plaintiff no long posed a threat when they used force
to subdue him; reasonable officers in their positions
could conclude Plaintiff was not subdued when the allegedly excessive force was utilized and the law at the
time of the arrest did not establish that using force
against a person in Plaintiff ’s position violated the
Fourth Amendment (Doc.No. 18, p. 18).
In his objection Plaintiff asserts Defendants are
not entitled to qualified immunity and devotes much of
his brief to addressing the legal issues without specifically challenging Judge Mitchell’s conclusions. Plaintiff characterizes the facts in his objection in a manner
inconsistent with the video evidence submitted. Although he is correct that he exited the vehicle and
dropped weapons, the evidence does not establish that
Plaintiff was no longer a threat: officers could not see
what he might have stashed elsewhere on his person,

App. 36
nor did he cease moving. Rather, Plaintiff took off running away from the officers. To the extent Plaintiff contends he surrendered to Sergeant Deon, a member of
the National Guard who is not a Defendant herein and
who is not alleged to have acted under color of state
law, the video establishes that even after Sergeant
Deon stopped Plaintiff in his attempt to evade the Defendant officers, who were chasing him on foot, he was
not subdued, but rather continued to fight.
The Court has conducted its de novo review of the
Report and Recommendation and the Plaintiff ’s objection thereto. Having conducted this review, the Court
finds no basis for altering or amending Judge Mitchell’s thorough and well-written Report and Recommendation. Judgment shall be entered in favor of the
Defendants Jones and Wright in their individual capacities.
IT IS SO ORDERED this 31st day of October
2018.
/s/ David L. Russell
DAVID L. RUSSELL
UNITED STATES
DISTRICT JUDGE

App. 37
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF OKLAHOMA
WAYNE DUKE KALBAUGH, )
)
Plaintiff,
)
v.
) Case No.
) CIV-16-1314-R
JACOB JONES and
)
BRYAN WRIGHT,
)
Defendants.
)
JUDGMENT
(Filed Oct. 31, 2018)
Judgment is hereby entered in favor of Defendants
Wright and Jones.
ENTERED this 31st day of October 2018.
/s/ David L. Russell
DAVID L. RUSSELL
UNITED STATES
DISTRICT JUDGE

App. 38
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-------------------------------------------------------------------------------------------------------------------------

WAYNE DUKE KALBAUGH,
Plaintiff - Appellant,
v.
JACOB JONES, et al.,

No. 18-6205
(D.C. No. 5:16-CV01314-R)
(W.D. Okla.)

Defendants - Appellees.
-------------------------------------------------------------------------------------------------------------------------

ORDER
(Filed Apr. 23, 2020)
-------------------------------------------------------------------------------------------------------------------------

Before HARTZ, MORITZ, and EID, Circuit
Judges.
-------------------------------------------------------------------------------------------------------------------------

Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court who are in regular
active service. As no member of the panel and no judge
in regular active service on the court requested that
the court be polled, that petition is also denied.

App. 39
Entered for the Court
/s/ Christopher M. Wolpert
CHRISTOPHER M. WOLPERT,
Clerk

